 OFFICE OF AUDIT
 REGION 9
 LOS ANGELES, CA




                   City of Long Beach, CA

         Recovery Act Neighborhood Stabilization
                   Program 2 Grant




2012-LA-1012                                SEPTEMBER 21, 2012
                                                        Issue Date: September 21, 2012

                                                        Audit Report Number: 2012-LA-1012




TO:            William Vasquez, Director, Los Angeles Office of Community Planning and
               Development, 9DD

               ///SIGNED///
FROM:          Tanya E. Schulze, Regional Inspector General for Audit, Los Angeles Region,
               9DGA

SUBJECT:       The City of Long Beach, CA, Did Not Fully Comply With Federal Regulations
               When Administering Its NSP2 Grant


    Enclosed is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), final results of our review of the City of Long Beach’s Neighborhood
Stabilization Program 2 (NSP2).

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
(213) 534-2471.
                                          September 21, 2012
                                          The City of Long Beach, CA, Did Not Fully Comply With
                                          Federal Regulations When Administering Its NSP2 Grant




Highlights
Audit Report 2012-LA-1012


 What We Audited and Why                   What We Found

We conducted an audit of the City of      We found no problems with the $5.5 million the City
Long Beach because it was awarded         provided to Habitat, used to purchase and redevelop
more than $22.2 million in Recovery       abandoned or foreclosed-upon homes. However, the
and Reinvestment Act of 2009 NSP2         City did not fully comply with Federal regulations
funds on February 11, 2010 as the lead    when administering its NSP2 second mortgage
agency in a consortium with Habitat for   assistance activities. Specifically, it did not (1) obtain
Humanity of Greater Los Angeles           the 1-percent market rate purchase discount on non-
(Habitat), making it one of the largest   real-estate-owned properties and (2) have all properties
NSP2 fund recipients in the Los           appraised within 60 days of the final offer.
Angeles area. Our objective was to
determine whether the City of Long
Beach administered its NSP2 grant in
accordance with Federal regulations.

 What We Recommend

We recommend that the Director of the
Los Angeles Office of Community
Planning and Development require the
City to reimburse the NSP2 program
$84,110 from non-Federal funds, and
implement procedures and controls to
ensure that its appraisals meet program
timeframe requirements.
                           TABLE OF CONTENTS


Background and Objective                                             3

Results of Audit
      Finding: The City Did Not Fully Comply With Regulations When
               Administering Its NSP2 Activities                     4

Scope and Methodology                                                8

Internal Controls                                                    10

Appendixes
A.    Schedule of Questioned Costs                                   11
B.    Auditee Comments and OIG’s Evaluation                          12
C.    Criteria                                                       16




                                          2
                      BACKGROUND AND OBJECTIVE

The Neighborhood Stabilization Program 2 (NSP2) was authorized under Title XII of Division A
of the American Recovery and Reinvestment Act of 2009 and provided 56 grants nationwide on
a competitive basis totaling $1.93 billion. NSP2 was established to stabilize neighborhoods, the
viability of which has been and continues to be damaged by the economic effects of properties
that have been foreclosed upon and abandoned. The NSP2 grant recipients included local
governments, nonprofits, consortiums, and one State.

The City of Long Beach was awarded more than $22.2 million in NSP2 funds as the lead
member in a consortium with Habitat for Humanity of Greater Los Angeles to revitalize targeted
neighborhoods. Habitat was to use 25 percent of the grant to purchase, rehabilitate, and resell
vacant and foreclosed-upon homes to families earning less than 50 percent of the area median
income. The City planned to use the rest of the funds to serve households earning up to 120
percent of area median income. The City allocated $14.4 million to provide second mortgage
assistance to low- and moderate-income families to aid with the acquisition of a foreclosed-upon
single-family home in Long Beach. The maximum loan amount for low-income families was
$200,000, and the maximum loan amount for middle- or moderate-income families was $77,540.
The City would also provide grants of up to $10,000 for closing costs and $30,000 for Green-
Lite and code-related rehabilitation. As of July 17, 2012, the City had drawn $11.1 million from
the grant specific to the second mortgage assistance program and $4.5 million for Habitat, for a
total of $15.6 million.

Our objective was to determine whether the City administered its NSP2 grant in accordance with
Federal regulations. Specifically, we focused on whether (1) home-buyer purchases under the
City’s second mortgage assistance program received the required purchase discounts and (2) the
homes purchased were appraised within 60 days of the final offer.




                                               3
                                 RESULTS OF AUDIT


Finding 1: The City Did Not Fully Comply With Regulations When
           Administering Its NSP2 Activities
The City did not fully comply with Federal regulations when administering its second mortgage
assistance program. Specifically, it did not ensure that (1) home buyers received a 1-percent
purchase discount from the current market appraised value of the homes and (2) property
appraisals were conducted within 60 days of the final offer. These conditions occurred because
the City’s NSP2 policies and procedures manual contained incorrect information regarding the
purchase discount. Also, the City had inadequate controls to ensure that it followed its policies
and procedures and Federal regulations regarding appraisals of NSP2 grant properties. As a
result, $84,110 could have been used toward helping additional home buyers, and the City was
not assured that its home buyers received the best price for homes purchased.



 1-Percent Discount Not Always
 Taken

               Our review of all 69 homes purchased as of March 30, 2012, through the second
               mortgage assistance program found that a total of 27 homes (nearly 40 percent)
               were purchased without the required 1-percent purchase discount. The Notice of
               Funding Availability for NSP2 required all foreclosed-upon homes or residential
               properties to be purchased at a discount of at least 1 percent (see appendix C). Of
               the 27 homes that did not receive the purchase discount, 26 were short sales, and
               1 was a real estate-owned property owned by the U.S. Department of Housing and
               Urban Development (HUD). Further, 3 of the 27 homes received a discount, but
               the amount of the discount was less than 1 percent. As a result, $84,110 could
               have been used toward helping additional home buyers with silent second
               mortgages, closing cost assistance, or rehabilitation costs.




                                                4
                 Property purchase amounts overpaid
                              1% purchase                                                     Amount
                  Property                     Discount amount taken
                            discount amount                                                   overpaid
                      1           $3,350                 $0                                     $3,350
                      2           $2,300                 $0                                     $2,300
                      3           $3,500                 $0                                     $3,500
                      4           $3,750                 $0                                     $3,750
                      5           $3,800                 $0                                     $3,800
                      6           $3,550                 $0                                     $3,550
                      7           $3,400              $(1,000)                                  $2,400
                      8           $3,900                 $0                                     $3,900
                      9           $3,650                 $0                                     $3,650
                     10           $4,500                 $0                                     $4,500
                     11           $3,150                 $0                                     $3,150
                     12           $3,400                 $0                                     $3,400
                     13           $3,350                 $0                                     $3,350
                     14           $2,200                 $0                                     $2,200
                     15           $3,350                 $0                                     $3,350
                     16           $3,650                 $0                                     $3,650
                     17           $3,300                 $0                                     $3,300
                     18           $2,200                 $0                                     $2,200
                     19           $2,100                 $0                                     $2,100
                     20           $2,750                 $0                                     $2,750
                     21           $2,850                 $0                                     $2,850
                     22           $2,690                 $0                                     $2,690
                     23           $4,120              $(2,000)                                  $2,120
                     24           $2,800                 $0                                     $2,800
                     25           $3,000                 $0                                     $3,000
                     26           $4,650              $(2,000)                                  $2,650
                     27           $3,850                 $0                                     $3,850
                    Total        $89,110              $(5,000)                                 $84,110

                 The City’s NSP2 policies and procedures did not match Federal requirements.
                 The City’s policies and procedures stated that the purchase price for real estate-
                 owned homes must be at least 1-percent less than the current appraised market
                 value of the home, but the one percent discount did not apply to those homes that
                 are not an REO property (see Appendix C). The City was not able to provide a
                 reason why its policies and procedures did not meet program requirements for
                 non-REO properties. Subsequent to our bringing this to the City’s attention, the
                 City updated its policies and procedures as of June 4, 2012, to reflect all
                 acquisitions (short sales and REOs) must receive the 1-percent purchase
                 discount.1

1
  We did not review properties acquired after June 5, 2012, to confirm whether the City had adequately implemented
the new procedures (see Scope and Methodology).


                                                        5
Appraisals Not Always
Performed Within 60 Days of
Final Offer

           Our review of 69 files revealed that properties purchased by the homebuyers as
           part of the Second Mortgage Assistance program were not always appraised
           within 60 days of the final offer. We found 15 files in which the appraisals were
           performed from 7 to 145 days after the 60-day requirement with the average
           number of days being 54. This deficiency was contrary to requirements of both
           the City’s NSP2 policies and procedures and Federal regulations. The City’s
           NSP2 policies and procedures manual stated, “The date of the appraisal must be
           within 60 days of the finalization of the purchase offer.” Federal requirements
           also stated that appraisals were to be completed within 60 days of the offer.

           The purpose of appraisals for homes purchased under the NSP2 grant is to ensure
           that purchasers pay below-market value for the home or property. Therefore, if
           the appraisal is not conducted within 60 days, HUD cannot be reasonably assured
           that the home is purchased for below-market value. When we inquired about the
           matter, the City’s grant administration officer appeared to be unaware that any of
           the second mortgage assistance program homes were not appraised within 60 days
           of the final offer. Additionally, he stated that the industry standard was 120 days.
           However, this was not the requirement in the City’s procedures, and 5 of the 15
           homes’ appraisals were also completed beyond the 120-day standard cited, as
           highlighted in the table below.

           Late appraisals
                                                   Appraisal was
              Property    Total number of days
                                                 later than 60 days
                 1                75                      15
                 2                71                      11
                 3               123                      63
                 4                67                       7
                 5               116                      56
                 6               164                     104
                 7               101                      41
                 8               160                     100
                 9                73                      13
                10               110                      50
                11                85                      25
                12               192                     132
                13               205                     145
                14               105                      45
                15                71                      11
               Average number of days late               54.3




                                             6
Conclusion

             The City did not fully comply with Federal regulations when administering its
             second mortgage assistance program. It allowed 27 homes to be purchased by
             home buyers who did not receive the required 1-percent purchase discount.
             Further, the City did not follow its own policies and procedures or Federal
             regulations requiring appraisals to be conducted within 60 days of the final offer.
             As a result, $84,110 could have been used toward helping additional home
             buyers, and the City was not assured that home buyers received the best price for
             homes purchased.

Recommendations

             We recommend that the Director of the Los Angeles Office of Community
             Planning and Development require the City to:

             1A.    Reimburse the NSP2 program $84,110 from non-Federal funds for the
                    excess amount paid on 27 properties that were not purchased at the
                    required 1-percent discount from the current market appraised value.

             1B.    Follow up with the City to ensure that homes purchased after June 5, 2012
                    received the 1-percent discount for subsequent NSP2 property purchases
                    and specifically for short sale properties.

             1C.    Implement procedures and controls to prevent future occurrences of
                    appraisals being conducted more than 60 days after the final offer.




                                              7
                         SCOPE AND METHODOLOGY

We performed our onsite work at the City’s Department of Development Services Neighborhood
Services Bureau located at 100 West Broadway, Suite 550, Long Beach, CA, between March and
August 2012. The audit scope covered the period February 11, 2010, through March 30, 2012,
and was extended as necessary. Our objective was to determine whether the City complied with
Federal requirements when administering its NSP2 grant.

To accomplish our audit objective, we

       Reviewed relevant HUD NSP2 regulations.

       Reviewed the City’s policies and procedures pertaining to its NSP2 grant.

       Reviewed the NSP2 grant agreement.

       Reviewed the Consortium Agreement between the City and Habitat.

       Reviewed the City’s audited financial statements and single audit reports for 2009 and
       2010.

       Reviewed Habitat’s audited financial statements for 2008, 2009, and 2010.

       Obtained and reviewed pertinent information from the DRGR.

       Analyzed and reviewed property files from Habitat.

       Reviewed program expenditures.

       Interviewed key personnel from the City and HUD.

       Analyzed and reviewed the entire population of 69 files for homes purchased through
       March 30, 2012.

Initially, we selected two separate samples, one for the second mortgage assistance program and
one for Habitat. We selected a random sample of 10 properties for the SMA program because
this would allow us to review nearly 15 percent of the population. We selected a random sample
of 5 properties for Habitat because this would allow us to review 40 percent of the population
and would give us an opportunity to review at least one file from each activity, such as properties
sold, construction completed, and construction in progress. After our preliminary review of the
second mortgage assistance properties, we reviewed the entire population of 69 files, which was


                                                8
the number of homes purchased under the program as of March 30, 2012. We reviewed each file
to determine whether the home was purchased with the 1-percent purchase discount and whether
the appraisal was performed within 60 days of the final offer or residential purchase agreement.
There were no problems found with the Habitat files reviewed.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               9
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

       Effectiveness and efficiency of operations,
       Reliability of financial reporting, and
       Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

                      Controls over compliance with Federal laws and regulations.

                      Controls over the City’s policies and procedures.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiencies

               Based on our review, we believe that the following items are significant deficiencies:

                      The City did not fully comply with Federal regulations when
                      administering activities specific to home purchases (finding 1).

                      The City did not comply with its own NSP2 policies and procedures
                      specific to appraisals (finding 1).


                                                 10
                                   APPENDIXES

Appendix A

                SCHEDULE OF QUESTIONED COSTS
                         Recommendation
                                                 Ineligible 1/
                             number
                                     1A                 $84,110



1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.




                                            11
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation                          Auditee Comments

             September 6, 2012


             United States Department of Housing and Urban Development
             Office of Inspector General
             Attention: Tanya E. Schulze, Regional Inspector General for Audit
             611 West Sixth Street, Suite 1160
             Los Angeles, CA 90017


             Introduction
             The Neighborhood Stabilization Program 2 (NSP2) is a grant award to the City from the
             United States Department Housing and Urban Development (HUD) that is intended to stem
             the tide of foreclosures and short sales and allow these homes to be purchased by qualified
             first time homebuyers. The City is not directly acquiring the properties, but is instead using
             the NSP2 funds to provide financing mechanisms to assist these first-time homebuyers and
             increase the level of home ownership in the City.

             The Office of Inspector General (OIG) recently concluded a review of the City’s NSP2.
             During the course of this review, the OIG identified two findings related to program
             implementation. The purpose of this communication is to respond to these findings and
             explain the genesis of the implementation procedures, as well as to identify mitigation and
             corrective actions that were undertaken to align the program with the identified
             regulations.

             Response
             The first component of the OIG finding is entitled The City Did Not Obtain The Required
             One-Percent Market Rate Discount on Properties. In describing the condition related to
             this part of the finding, the OIG states that the City did not ensure the one-percent market-
             rate discount for non-real estate owned properties as a result of incorrect information in
             the City’s NSP2 policies and procedures manual.

             The City would like to take this opportunity to clarify that it was cognizant of the discount
             requirement and initially included it in the earliest versions of the policies and procedures
Comment 1    manual. This can be substantiated and documented by earlier versions of the manual.
             However, the City realized difficulty in implementing this requirement as it related to
             non-real estate owned (i.e. short sale) properties during the early stages of the program,
             and the City approached the HUD regional office in Los Angeles through




                                                  12
            its Community Planning and Development representative for NSP2 to discuss the matter.

            During this discussion, City staff enumerated the following impediments and how they
            made it difficult to implement the discount requirement vis-à-vis non-real estate owned
            transactions.

                             In the short sale transactions, the purchase price negotiation occurred
                             directly between the buyer, seller, and the seller’s lien-holder/mortgagee.
                             The mortgagees were already agreeing to take losses based on the
                             amounts owed by the sellers. As part of the banking industry’s standard
                             procedures, appraisals were not ordered until after these lengthy
                             negotiation processes were completed and the purchase agreements fully
                             executed, and mortgagees were not amenable to reopening the
                             negotiation process to accommodate the one-percent discount
                             requirement.

                             The mortgagee also bore the expense of several settlement charge
                             expenses, most notably real estate commissions, that routinely reduced
                             the lender’s net sale proceeds by 5 to 8 percent per transaction. This
                             analysis was performed by City staff and can be substantiated.
                             Moreover, it shows that the City was not unduly enriching the
                             mortgagees at the expense of the homebuyers.

            During communication with the HUD representative regarding the above described
            impediments, the City understood that it was acceptable to exempt short sale transactions
Comment 2   from the one-percent discount requirement. This led to a change to the original policies
            and procedures manual, allowing short sales to be exempted from the one-percent
            discount requirement. It was this version of the policies and procedures manual that was
            reviewed and documented by the OIG as described in their finding.

            However, during the OIG monitoring, the City was told that the regulations had not been
Comment 3   changed to exempt short sales from the one-percent discount and the City immediately
            instituted corrective action, including notification of NSP2 stakeholders and revision of
            policies and procedures manual.

            The other component of the OIG finding is entitled The City Did Not Have All Properties
            Appraised Within 60 Days Of The Final Offer. In its NSP2 Second Mortgage Assistance
            Program (SMAP), the City has worked with realtors and lenders who serve as the initial
            points of contact for NSP2-assisted homebuyers. Homebuyers first pursued financing
            approvals through these community partners and have come to conduct their NSP2-
            funded real estate transactions in accordance with current industry standards, which assess
            an appraisal’s OIG
                           age toEvaluation
                                  determine whether  it is lessComments
                                                of Auditee      than 120 days old at the time of escrow’s
            close.




                                                13
            It was not the City’s intention to willfully violate any NSP2 regulations. However, in this
            case, there were no damages and the mistake led to a more efficient, better-designed
            method of capturing fair market value. The City recognizes that the primary purpose of
            the NSP2 appraisal requirement is to ensure cost reasonableness of the purchase price.
            Because market conditions in real estate are prone to change, an appraisal issued more
            than 60 days after the open of escrow, but before any funds are disbursed at close of
            escrow, is beneficial to the program. In other words, an appraisal issued closer to the
            close of escrow is more accurate in terms of representing the true current market value of
Comment 4   the property. By consistently obtaining appraisals after escrow opened, and ensuring that
            they were updated by close of escrow, the City has complied with the spirit and intention
            of this cost reasonableness requirement. During the OIG monitoring period, HUD
            released a new directive, more closely aligned with the City’s implementation of the
            requirement, that further explained the purpose of NSP appraisals and clarified that
            appraisals completed more than 120 days prior to the close of escrow must be updated for
            NSP2-funded transactions.

            The City incorporated this policy clarification as of March 15, 2012, the release of the
            guidance from HUD. Furthermore, procedures regarding the requirement for updated
            appraisals for those older than 60 days at close and new full appraisals for those aged
            more than 120 days at escrow have been incorporated into the City’s policies and
            procedures manual and disseminated to all NSP2 stakeholders.

            Conclusion
            It is never the City’s intention to violate federal regulations, and this has been shown
            through the City’s diligence in adhering to many similarly complex NSP2 regulations that
            were assessed as part of this review. Furthermore, the City would like to take this
            opportunity to express our gratitude for the professionalism that was accorded to the City
            by OIG staff.


            Sincerely,



            Patrick H. West
            City Manager




                          OIG Evaluation of Auditee Comments




                                                14
                         OIG Evaluation of Auditee Comments

Comment 1   The City did not provide the OIG with "earlier versions" of its policies and
            procedures manual during the course of audit field work or as part of its
            comments. The City has only provided the policies and procedures in effect
            during our audit period, and the revised procedures discussed in the report. As a
            result, we cannot confirm whether prior versions appropriately included the
            discount requirement.

Comment 2   No documentation has been provided by the City to support this conversation took
            place between the City and HUD.

Comment 3   We agree that the City did promptly change its policies and procedures once we
            notified the City of the issue.

Comment 4   HUD did release additional guidance during the course of audit field work, further
            clarifying the need for updating appraisals in the event of delayed closing.
            However, the new directive did not change the timeframe requirements for
            obtaining an appraisal within 60 days of final offer. Not obtaining appraisals
            within the required timeframes increases the risk that the grantee may not be
            meeting statutory NSP discount requirements and that homebuyers may not be
            receiving the best price.




                                            15
Appendix C

                                        CRITERIA

The Notice of Funding Availability for NSP2 under the American Recovery and
Reinvestment Act of 2009, Docket No. FR-5321-N-01, Appendix I(A):

Current market appraised value. The current market appraised value means the value of a
foreclosed upon home or residential property that is established through an appraisal made in
conformity with the appraisal requirements of the URA [Uniform Relocation Assistance and
Real Property Acquisition Policies Act] at 49 CFR [Code of Federal Regulations] 24.103 and
completed within 60 days prior to an offer made for the property by a recipient, subrecipient,
developer, or individual homebuyer; provided, however, if the anticipated value of the proposed
acquisition is estimated at $25,000 or less, the current market appraised value of the property
may be established by a valuation of the property that is based on a review of available data and
is made by a person the recipient determines is qualified to make the valuation.

(Q). Purchase discount

Background

Section 2301(d)(1) limits the purchase price of a foreclosed home, as follows:
“Any purchase of a foreclosed upon home or residential property under this section shall be at a
discount from the current market appraised value of the home or property, taking into account its
current condition, and such discount shall ensure that purchasers are paying below-market value
for the home or property.”

To ensure that uncertainty over the meaning of this section does not delay program
implementation, HUD is defining “current market appraised value” in this notice. For mortgagee
foreclosed properties, HUD is requiring that recipients seek to obtain the “maximum reasonable
discount” from the mortgagee, taking into consideration likely “carrying costs” of the mortgagee
if it were to not sell the property to the recipient or subrecipient. HUD has adopted an approach
that requires a minimum discount of one percent for each residential property purchased with
NSP funds and a minimum average discount of five percent for all residential properties
purchased with NSP2 funds during the three year expenditure period.

Requirements

1. Individual purchase transaction. Each foreclosed-upon home or residential property shall be
   purchased at a discount of at least one percent from the current market-appraised value of the
   home or property.




                                               16
City of Long Beach NSP2 Policies and Procedures Manual, Module 4 – Acquisition
(I)(A)(2):

The purchase price of the Real Estate Owned (REO) home must be at least 1% less than the
current appraised market value of the home. The 1% discount does not apply to those homes that
are not an REO property.

HUD’s Guide to Property Acquisitions in NSP Programs (5):

(C) Estimate of Property Value; Appraisals
While it is not required for voluntary acquisitions in an NSP program at the pre-offer state, it is
advisable to obtain a professional evaluation of the as-is market value of the property to
determine the cost-reasonableness of the asking price or proposed offer price. Brokers’ opinions
and electronic appraisals are examples of low-cost assessments that might be used for the
purpose of informing offers.

With voluntary acquisitions, as an alternative to the informal appraisal above, obtain a full URA-
compliant appraisal if the property is foreclosed upon and the buyer plans to execute a sales
agreement on the property within 60 days. For foreclosed properties as defined by NSP, an
appraisal must be completed within 60 days of an offer made for the property, to confirm that the
offer or sale price is at least 1% below appraised value, as required by NSP. Some NSP buyers
complete these before they make an initial offer, while others want to make sure the initial offer
is accepted before they incur this cost prior to a final offer. If a full appraisal is required by NSP
(remember, in voluntary acquisitions, they are only required for foreclosed properties) and if not
obtained before making the offer, then the option or purchase agreement must be conditional
upon receiving an appraisal that confirms that required discount.




                                                 17
